U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 29, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Charles Ahumada v. United States, No. 20-7968
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 6, 2021.
The government’s response is now due, after one extension, on July 9, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
August 9, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7968
AHUMADA, CHARLES
USA

STEVEN R. MORRISON
THE MORRISON LAW PRACTICE
1526 ROBERTSON COURT
GRAND FORKS , ND 58201
617-479-7817
STEVEN.R.MORRISON@GMAIL.COM

